BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief of
Arizona, Missouri, Alabama, Alaska, Arkansas,
Florida, Georgia, Idaho, Indiana, Kansas, Kentucky,
Louisiana, Mississippi, Montana, Nebraska, New
Hampshire, North Dakota, Ohio, Oklahoma, South
Carolina, South Dakota, Tennessee, Texas, Utah, West
Virginia, and Wyoming as Amici Curiae in Support of
Petitioners in 20-843, New York State Rifie & Pistol
Association, Inc., et al. v. Kevin P. Bruen, in His
Official Capacity as Acting Superintendent of New
York State Police, et al. were sent via Next Day Service
to the U.S. Supreme Court, and 3 copies were sent via
Next Day and e-mail service to the following parties
listed below, this 20th day of July, 2021:
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com

Counsel for Petitioners
Barbara Dale Underwood
Solicitor General
Office of the Attorney General
28 Liberty Street
New York, NY 10005-1400
Barbara. underwood@ag.ny.gov
(212) 416-8016

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Drew C. Ensign
Deputy Solicitor General
Counsel of Record
Office of the Arizona Attorney General
2005 N. Central Ave.
Phoenix, AZ 85004
(602) 542-5025
Drew.Ensign@azag.gov
D. John Sauer
Solicitor General
Office of the Missouri Attorney General
Supreme Court Building
207 West High Street
P.O. Box 899
Jefferson City, MO 65101
(573) 751-3321
John.Sauer@ago.mo.gov
Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 20, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

"Jf,;,o(Lq

Nota'1.ublic

=::::::

[seal]

AMY TRIPLETI MORGAN

Attorney at Law
Notary Public, State of Ohio
My Commission Has-No Expiration
Date. Section 147.03 O.R.C.

